Audit of the Health Resources and Services Administration's Controls Over Outside Activities, Financial Disclosure, Appointment of Staff Fellows and Expert Consultants, and Travel, A-03-01-00351
Department
of Health and Human Services
Office of Inspector General -- AUDIT
Audit of the Health Resources and Services Administration's Controls Over Outside Activities, Financial Disclosure, Appointment
of Staff Fellows and Expert Consultants, and Travel, A-03-01-00351
February 20, 2002
Complete
Text of Report is available in PDF format (746 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if adequate controls existed to ensure that Health Resources and Services
Administration (HRSA) adhered to regulations and policies regarding outside activities, financial disclosure, appointment
of staff fellows and expert consultants, and travel.  Our review and testing of HRSA's internal controls revealed
no evidence of substantive violations of ethics or travel policies.  However, we did identify technical lapses related
to the timeliness and completeness of certain forms and inappropriate policy regarding the supervisory approval chain for
travel.  HRSA officials took corrective action in some areas, and planned to take corrective action in accordance
with our recommendations in the remaining areas.